IN THE

Supreme Court of the Anited States

No.

AMG CaPITAL MANAGEMENT, LLC; BLACK CREEK
CAPITAL CORPORATION; BROADMOOR CAPITAL
PARTNERS, LLC; LEVEL 5 MOTORSPORTS, LLC;
Scott A. TUCKER; PARK 269 LLC; AND KIM C. TUCKER,

Petitioners,
Vv.

FEDERAL TRADE COMMISSION,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

Thereby certify that on this 18th day of October, 2019, I caused three copies of the
Petition for a Writ of Certiorari to be served on the counsel of record as follows:

By overnight delivery and email to:

Imad Dean Abyad Noel Francisco

Theodore P. Metzler Solicitor General

FEDERAL TRADE COMMISSION U.S. DEPARTMENT OF JUSTICE
600 Pennsylvania Avenue, NW 950 Pennsylvania Avenue, NW
Washington, D.C. 20580 Room 5616

(202) 326-3502 Washington, D.C. 20530-0001
iabyad@ftc.gov (202) 514-2203
tmetzler@ftc.gov SupremeCtBriefs@usdoj.gov
Counsel for Respondent Counsel for Respondent

Blaine T. Welsh

OFFICE OF THE U.S. ATTORNEY
501 Las Vegas Boulevard South
Suite 1100

Las Vegas, NV 89101

(702) 388-6336
Blaine.Welsh@usdoj.gov

Counsel for Respondent
T hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.

Executed on October 18, 2019.

 

The Watergate, Suite 660

600 New Hampshire Ave., NW
Washington, D.C. 20037

(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
